    DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                                  Office of Inspector General


                                                                                             Washington, D.C. 20201



                                             JAN' - 5 2010


TO: 	             Caroln) M. Clancy, M.D.
                  Director
                  Agency for Healthcare Research and Quality

                  Charlene Frizzera 

                  Acting Administrator 

                  Centers for Medicare & Medicaid Services 

                        /S/
FROM:             Sruart Wright
                  Deputy Inspector Deneral
                     for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Adverse Ev~nts in Hospitals: Public Disclosure oj
           Information Aboul Events, OEI-06-09-00360


This memorandum 'report provides information about policies, practices, and plans for
public disclosure of information about adverse events occurring in hospitals and patient
privacy protectiol1s for adverse event data. Publicly disclosing adverse event information
c,an educate healthcare providersahout the causes of events; potentially leading to
improvements in patient safety and assisting patients when making decisions about their
care. However, there is concern that disclosure could undermine patient privacy.

Among the entities that we reviewed, including 17 selected State adverse event reporting
systems, 8 selected Patient Safety Organizations (PSO) overseen by the Agency for
Healthcare Research and Quality (AHRQ) and the Centers for Medicare & Medicaid
Services (eMS), we found only limited public disclosure of information about adverse
events, Among these entities, seven State systems disclose more extensive information
about the causes of adverse events and prevention strategies than other State systems.
Such disclosure may provide the medical community with valuable information for
improving patient safety. All reviewed entities protect patient privacy through policies,
practices, and legal provisions,




OEl-06-09-00360           Adverse Events in Hospitals: Public Disclosure oflnfbrmation About Events
Page 2 – Carolyn M. Clancy, M.D., and Charlene Frizzera


BACKGROUND

Statutory Mandate and Office of Inspector General Response
The Tax Relief and Health Care Act of 2006 (the Act) requires that the Office of
Inspector General (OIG) report to Congress regarding the incidence of “never events”
among Medicare beneficiaries; the extent to which the Medicare program paid, denied
payment, or recouped payment for services furnished in connection with such events; and
the processes that CMS uses to identify such events and deny or recoup payment. 1, 2 The
Act also mandates that OIG recommend, as appropriate, potential processes for public
disclosure of information about events, which will ensure patient privacy and permit the
use of the information for a root-cause analysis to inform the public and the medical
community about safety issues. (For relevant text of the Act, see Appendix A.) To meet
the requirements of the Act, OIG published a series of reports in 2008 and will publish
additional reports based on ongoing work. 3

Adverse Events in Hospitals
Since the Act went into effect, patient safety issues have continued to receive attention
from policymakers, the health care industry, and patient safety advocates. The health
care community now uses the term “adverse event” more commonly than “never event”
to refer to harm experienced by a patient as a result of medical care. After consulting
with congressional committee staff in 2007, we modified our approach and terminology
to be consistent with evolving patient safety research and industry trends.

As used in this study, an adverse event is defined as harm to a patient as a result of
medical care or harm that occurs in a healthcare setting. Although an adverse event often
indicates that the care resulted in an undesirable clinical outcome and may involve
medical errors, adverse events do not always involve errors, negligence, or poor quality
of care and may not always be preventable. 4

Following a review of Medicare policies and expenditures, as well as consultation with
officials from CMS and AHRQ, we chose to focus our work on inpatient admissions to
acute care hospitals. In 2007, 12.3 million Medicare beneficiaries were hospitalized 5 and
inpatient hospital costs constituted the largest portion of Medicare expenditures
(30 percent in 2007). 6
1 Tax Relief and Health Care Act of 2006 (TRHCA), P.L.No. 109-432 § 203.
2 For purposes of the Act, the term “never event” means “an event that is listed and endorsed as a serious reportable event by the
National Quality Forum (NQF) as of November 16, 2006.” TRHCA, § 203(d). NQF uses the term “serious reportable events” to
describe a specific list of events associated primarily with patient death or serious disability that “should never occur in a health care
setting.” These became known as “never events.” The list is available online at http://www.qualityforum.org/Topics/Safety.aspx.
Accessed on August 12, 2009.
3 The studies released in 2008 include: Department of Health and Human Services (HHS), OIG, Adverse Events in Hospitals:

Overview of Key Issues, OEI-06-07-00470, December 2008; OIG, Adverse Events in Hospitals: State Reporting Systems,
OEI-06-07-00471, December 2008; and OIG, Adverse Events in Hospitals: Case Study of Incidence Among Medicare Beneficiaries in
Two Counties, OEI-06-08-00220, December 2008.
4 R.M. Wachter, Understanding Patient Safety, McGraw-Hill, 2008.
5 CMS, Statistics Book, Table IV.1: Medicare/short-stay hospital utilization, 2008, p. 43.
6 Based on data contained in the Congressional Budget Office (CBO), Fact Sheet for CBO’s March 2008 Baseline: Medicare,

March 12, 2008. Available online at http://www.cbo.gov/budget/factsheets/2008b/medicare.pdf. Accessed on October 21, 2009.



OEI-06-09-00360                    Adverse Events in Hospitals: Public Disclosure of Information About Events
Page 3 – Carolyn M. Clancy, M.D., and Charlene Frizzera



Reporting Information About Adverse Events
In To Err is Human: Building a Safer Health System, the Institute of Medicine (IOM)
recommended a nationwide system for collecting standardized data about serious medical
errors and other adverse events. 7 IOM maintained that adverse event reporting would
ensure provider accountability, and that standardized data definitions would allow
stakeholders to compile data, analyze reports, and target areas to improve patient safety.
At present, there is no centralized adverse event reporting system to which all hospitals
submit adverse event data and which, in turn, disseminates adverse event information to a
national audience. Rather, there are separate Federal, State, and nongovernmental
entities that receive and disclose adverse event information. Depending on the entity,
reporting by hospitals is either voluntary or mandatory, and the entities have different
data collection procedures, privacy protections, and dissemination practices. For this
memorandum report, we reviewed the following entities, which receive information
about adverse events from hospitals:

●    State adverse event reporting systems;
●    PSOs; and
●    CMS, in its role as recipient of Medicare claims that include information about
     hospital-acquired conditions.

We selected these entities because (1) many State systems have a history of collecting
and analyzing adverse event data; (2) PSOs represent a significant, recent Federal effort
to collect national adverse event data; and (3) CMS claims data include information about
adverse events affecting Medicare beneficiaries, a specific population of interest
identified in the Act.

State Adverse Event Reporting Systems
In the 2008 report, Adverse Events in Hospitals: State Reporting Systems, OIG found
that 25 States and the District of Columbia operated systems to collect adverse event data
submitted by hospitals. 8 All of these State systems received information about the event
itself and the name of the hospital. However, they differed in a variety of ways,
including whether reporting was voluntary or mandatory, how information about events
was reported, and the types of events reported. State systems also differed on the criteria
used to define adverse events, the amount and type of information submitted about
patients, and whether hospitals’ submissions included information about the causes of
events.

Patient Safety Organizations
AHRQ is implementing a recently established program to collect national adverse event
information. Hospitals may voluntarily submit information about adverse events to

7 L. T. Kohn, J. M. Corrigan, and M. S. Donaldson, editors, To Err is Human: Building a Safer Health System, A Report of the

Committee on Quality of Health Care in America, Institute of Medicine, 1999.
8 OIG, Adverse Events in Hospitals: State Reporting Systems, OEI-06-07-00471, December 2008.




OEI-06-09-00360                   Adverse Events in Hospitals: Public Disclosure of Information About Events
Page 4 – Carolyn M. Clancy, M.D., and Charlene Frizzera


PSOs, which will allow PSOs to perform analysis of aggregated data. PSOs may, in turn,
provide hospitals with analysis and recommendations for improving patient safety and
quality of care. A variety of organizations are eligible to become PSOs; AHRQ
determines whether they meet certain criteria to perform “patient safety activities.”9
Examples of organizations that have sponsored a PSO include hospital associations,
hospital chains, existing patient safety consultant groups, and newly created
organizations. 10 As of December 1, 2009, AHRQ had certified 72 PSOs. 11

AHRQ is creating and will maintain the Network of Patient Safety Databases (NPSD) to
provide an “evidence-based management resource for providers, patient safety
organizations, and other entities.” 12 PSOs will submit adverse event information
received from hospitals to the NPSD through “common formats,” which are standardized
data
collection forms that AHRQ is developing. Additionally, AHRQ has issued two
contracts to facilitate transmission of adverse event data from PSOs to the NPSD. The
Iowa Foundation for Medical Care will be responsible for removing patient identifiers
from PSO data prior to submission to the NPSD. Westat will operate the NPSD itself.
The NPSD will allow AHRQ to receive and publicly disclose non-identifiable adverse
event data at a national level. Once the NPSD is operational, the Patient Safety Act
requires that the data be used to analyze national and regional statistics, including trends
and patterns of reported adverse events, and for publicly disclosing findings from such
analyses. 13

CMS Receipt of Medicare Claims
In processing Medicare claims, CMS uses hospital claims data to identify certain adverse
events, called hospital-acquired conditions. Since October 1, 2007, CMS has required
that hospitals assign a present on admission (POA) indicator to each diagnosis for acute
inpatient Medicare claims. 14 The POA indicator differentiates diagnoses that were
hospital-acquired from those that were present on admission. This was an initial step in
complying with the Deficit Reduction Act of 2005 (DRA), which required CMS to select
hospital-acquired conditions for which hospitals would not be paid higher Medicare
reimbursement. 15 CMS selected 10 categories of conditions for the Medicare hospital-
acquired condition policy, which became effective October 1, 2008, and denies hospitals



9 The Secretary delegated authority to AHRQ to make these determinations, as well as to fulfill other requirements of the Patient

Safety Act. Patient Safety and Quality Improvement Act of 2005, P.L.No. 109-41 § 2, Public Health Service Act, §§ 923 and 924,
42 U.S.C. §§ 299b-23 and -24; 73 Fed. Reg. 70732 (Nov. 21, 2008).
10 AHRQ, PSO Update: Final Rule & Common Formats, December 8, 2008. Available online at

https://www.psoppc.org/c/document_library/get_file?uuid=c03fb6c5-0de4-49e2-9a1f-fc6ee47c2e28&groupId=10218. Accessed on
December 22, 2009.
11 AHRQ, Patient Safety Organizations. Available online at http://www.pso.ahrq.gov/listing/alphalist.htm. Accessed on

December 1, 2009.
12 42 U.S.C. § 922b-23(a).
13 42 U.S.C. § 299b-23(c).
14 CMS, CMS Manual System, Change Request 5679 (July 20, 2007).
15 DRA, P.L.No. 109-171 § 5001(c)(1), Social Security Act § 1886(d)(4)(D), 42 U.S.C. § 1395ww(d)(4)(D).




OEI-06-09-00360                   Adverse Events in Hospitals: Public Disclosure of Information About Events
Page 5 – Carolyn M. Clancy, M.D., and Charlene Frizzera


higher payment for Medicare admissions complicated by the 10 conditions. 16
Appendix B contains a list of these conditions.




16 Fiscal Year 2009 Inpatient Prospective Payment System Final Rule, 73 Fed. Reg. 48434, 48471-48491 (Aug. 19, 2008);

CMS, CMS Manual System, Change Request 6189 (Oct. 3, 2008).



OEI-06-09-00360                  Adverse Events in Hospitals: Public Disclosure of Information About Events
Page 6 – Carolyn M. Clancy, M.D., and Charlene Frizzera


Public Disclosure of Information About Adverse Events
Public disclosure of adverse event information offers potential benefits, yet may also lead
to unintended negative consequences. For example, publicly disclosing adverse event
information can educate healthcare providers about the causes of events potentially
leading to improvements in patient safety, and assist patients making decisions about
their care. However, there is concern that disclosure of event information could
undermine patient privacy and that naming the hospital where an event occurred, or the
individual providers involved, could discourage reporting of events.

METHODOLOGY

Scope
For this memorandum report, we reviewed policies, practices, and plans for publicly
disclosing information about adverse event causes and prevention strategies, while
protecting patient privacy. We did not examine hospital or provider confidentiality
issues, such as naming the hospital where an event occurred in disclosures, except for
possible patient privacy implications. We reviewed 17 selected State adverse event
reporting systems, 8 selected PSOs that will forward data to AHRQ’s NPSD, and CMS.
Data collection for this study was performed from July through September 2009.
Findings represent policies, practices, and plans in place during that time.

Selection of State Adverse Event Reporting Systems and PSOs
Using data from the OIG report Adverse Events in Hospitals: State Reporting Systems
(OEI-06-07-00471) and initial contacts with State system staff, we identified 17 State
adverse event reporting systems that, as of July 2009, collected information from acute
care hospitals about patients affected by adverse events and the causes of those events. 17
States using these systems are: Colorado, Florida, Maine, Maryland, Massachusetts (two
systems), Minnesota, Nevada, New Jersey, New York, Oregon, Pennsylvania, Rhode
Island, South Carolina, South Dakota, Utah, and Vermont.

Using AHRQ’s Directory of PSOs and contacts with PSO staff, we identified the first
eight PSOs that either received or intended to receive adverse event information from
acute care hospitals. 18 These PSOs are: California Hospital Patient Safety Organization;
Clinical Practice Advancement Center; ECRI Institute PSO; HealthWatch; Human
Performance Technology Group, Inc.; Institute for Safe Medication Practices; Missouri
Center for Patient Safety; and, Peminic, Inc.

Data Collection and Analysis
We conducted structured interviews with staff from the 17 State adverse event reporting
systems to determine the extent to which State systems disclose information about events,

17 We did not review State systems that, based on information from the 2008 OIG report, did not collect information from acute care
hospitals both about patients affected by adverse events and the causes of those events.
18 HHS, AHRQ, Alphabetical Directory of Listed Patient Safety Organizations. Available online at

http://www.pso.ahrq.gov/listing/alphalist.htm#P0002. Accessed on October 22, 2009.



OEI-06-09-00360                   Adverse Events in Hospitals: Public Disclosure of Information About Events
Page 7 – Carolyn M. Clancy, M.D., and Charlene Frizzera


their causes, corrective actions, risk reduction strategies, and patients affected by events.
We also reviewed relevant documents recently published by State systems, such as
reports, periodic bulletins, safety alerts, and information on State system Web sites.
Regarding patient privacy, we determined the extent to which State systems collect
information about patients and the extent to which they disclose this information. We
also identified State legal prohibitions against compelled release of information about
patients, and confirmed our interpretations with State system staff.

We conducted structured interviews with staff from AHRQ and the eight PSOs regarding
the extent to which they disclose information about adverse events, their future plans for
disclosure, the status of efforts necessary for the NPSD to become operational, and
patient privacy issues. We reviewed relevant documents, such as AHRQ’s interim
guidance for PSOs, proposed and final rules for PSOs, contracts related to PSOs and the
NPSD, and the Patient Safety Act. We examined the Patient Safety Act for requirements
regarding protections of patient privacy that apply to information submitted to PSOs and
forwarded to the NPSD.

We interviewed CMS staff regarding current and planned public disclosure of
information from Medicare claims data that include POA indicators. We reviewed
claims data and relevant documents to identify the extent to which these data could
inform the public about hospital-acquired conditions, their causes, and patient safety
issues. We also examined mechanisms that CMS uses to protect patient privacy when it
allows access to Medicare claims data.

Limitations
Although numerous entities collect information about adverse events, we could not
examine all such entities for this memorandum report. Examples of other entities that
receive adverse event information not examined in this memorandum report include the
Centers for Disease Control and Prevention’s National Health Safety Network, which
receives reports of hospital-acquired infections; and a variety of data systems at the Food
and Drug Administration (FDA) that receive reports of adverse events associated with
approved drugs, devices, and biologics, among others. 19

Standards
This study was conducted in accordance with the Quality Standards for Inspections
approved by the Council of the Inspectors General on Integrity and Efficiency.




 A recent OIG report examined adverse event reporting to FDA for medical devices. OIG, Adverse Event Reporting for Medical
19

Devices, OEI-01-08-00110, October 2009.



OEI-06-09-00360                 Adverse Events in Hospitals: Public Disclosure of Information About Events
Page 8 – Carolyn M. Clancy, M.D., and Charlene Frizzera


RESULTS

Public Disclosure of Information About Adverse Events is Limited Among the
Entities in Our Review
Seven State adverse event reporting systems disclosed more extensive information about
the causes of adverse events and prevention strategies than other State systems. Such
disclosure may provide the medical community with valuable information for improving
patient safety. Another three State systems disclosed less extensive information about
adverse events. AHRQ plans to disclose adverse event information but has not because
data are not yet available in the NPSD. CMS is considering plans for disclosing
information about hospital-acquired conditions in the future.

Seven State Systems Publicly Disclosed More Extensive Information About Causes of
Adverse Events and Prevention Strategies Than Other State Systems. These seven
systems provided information to educate the medical community on how to prevent or
reduce the occurrence of adverse events. Disclosure by these systems was based on
multiple reports of similar adverse events and included analysis of their causes.
Disclosures also contained information about actions taken by hospitals to correct
identified vulnerabilities, strategies to reduce the risk of events occurring, and
demonstrated improvements by hospitals. Table 1 provides details about the types of
adverse event information disclosed by the 17 State systems that we reviewed.

For example, one State system published an article addressing adverse events related to
anticoagulants (blood-thinning medications). The article combined information from
hundreds of adverse event reports received by the State system and data from
evidence-based research. In brief case summaries, the article provided details about the
events, including the level of patient harm and identified causes. To address the causes,
the article recommended that hospitals establish anticoagulation management service
programs that would document these services, educate patients and families, and gauge
progress in improving performance. State system staff followed up 6 months after the
article was distributed to hospitals and found that over half of hospitals in the State
reported making changes as a result of the article.

In contrast, three systems that we reviewed disclosed less extensive information about
causes and prevention strategies for events. These systems disclosed either information
about individual events or lists of events compiled from submitted hospital reports. For
example, two systems posted information about individual events, including event type
and date, hospital name and department, and possible contributing factors, but did not
disclose root-cause analysis information drawn from data about multiple occurrences.
The remaining system listed all reported corrective actions that hospitals anticipated
making, such as planned training, but did not indicate which events led to the planned
actions.




OEI-06-09-00360        Adverse Events in Hospitals: Public Disclosure of Information About Events
Page 9 – Carolyn M. Clancy, M.D., and Charlene Frizzera


Table 1: Adverse Event Information Disclosed by Selected State Systems
                            Disclosure About                      Disclosure Based on Information
                            Individual Events                           From Multiple Events
                         Causes of      Hospital        Causes of     Hospital        Risk
                                                                                                 Evidence of
System                   Individual    Corrective       Events by    Corrective    Reduction
                                                                                                Improvements
                           Events       Actions           Type         Actions     Strategies
                              Seven State systems with more extensive disclosure
Maryland                     ●                               ●                          ●               ●
Massachusetts, BRM*          ●                ●              ●              ●           ●               ●
Massachusetts, DPH*          ●                ●              ●              ●           ●
Minnesota                                                    ●              ●           ●               ●
New Jersey                   ●                ●              ●                          ●               ●
Oregon                       ●                ●                                         ●               ●
Pennsylvania                                  ●              ●              ●           ●               ●
                                 Three State systems with less extensive disclosure
Colorado                     ●                ●
Maine                                                                       ●
Rhode Island                 ●                ●
                                      Seven State systems with no disclosure
Utah
Florida
Nevada
New York
South Carolina
South Dakota
Vermont
* BRM abbreviates the Board of Registration in Medicine and DPH abbreviates the Department of Public Health.
Source: OIG review of 17 selected State adverse event reporting systems, 2009.




AHRQ Plans To Disclose Adverse Event Information, but the NPSD Is Not Operational
and Possible Barriers to Data Submission Exist. AHRQ plans to use aggregated PSO
data from the NPSD to identify national and regional trends of adverse events, and to
make this information available to the public. AHRQ’s plans include generating two
public reports, as required by the Patient Safety Act: a report about effective strategies
for reducing medical errors and increasing patient safety, and a report containing trend
analysis results.

AHRQ officials estimated that initial NPSD data will be available for analysis and
disclosure in early 2011. These initial data will include identification of adverse events
and their contributing factors for hospitals. AHRQ officials reported additional plans to
collect data about the causes of adverse events (e.g., root-cause analysis) and to expand
data collection beyond hospitals to other healthcare settings, such as nursing homes.
However, AHRQ has not announced a timeline for these additional plans.


OEI-06-09-00360               Adverse Events in Hospitals: Public Disclosure of Information About Events
Page 10 – Carolyn M. Clancy, M.D., and Charlene Frizzera



Staff from several PSOs that we reviewed reported barriers that could limit hospital
participation with PSOs and data submission to the NPSD. For example, staff from one
PSO reported that some hospitals had questioned the costs and benefits of PSO
participation. Additionally, staff from two PSOs indicated that they were unsure about
the value of submitting data to the NPSD.

Beyond AHRQ’s disclosure of PSO data, individual PSOs can also generate learning
materials for hospitals. Staff from only one PSO that we reviewed indicated plans to
share such information directly with the public. These staff reported plans to include
information about medication-related adverse events in a medication safety newsletter
available to all healthcare professionals and consumers.

CMS Is Considering Plans for Public Disclosure of Information About Medicare
Hospital-Acquired Conditions, a Subset of Adverse Events. CMS officials indicated that
CMS is considering posting the incidence of hospital-acquired conditions on its Hospital
Compare Web site, which currently includes other quality measures about hospitals.
Additionally, CMS may publicly disclose results from an ongoing evaluation focused on
the Medicare hospital-acquired conditions policy, its effects on Medicare reimbursement,
utilization, quality, patient safety, and any unintended consequences. CMS contracted for
the evaluation in September 2009, and will determine the extent of disclosure after
findings are known.

Although valuable for ascertaining the incidence of hospital-acquired conditions,
Medicare claims data lack information about the causes of these conditions or prevention
strategies, limiting their usefulness for improving patient safety. CMS officials
acknowledged that supplemental information about the circumstances under which a
beneficiary experienced a hospital-acquired condition could allow better understanding of
causes and development of prevention strategies. To collect such information, CMS is
considering combining hospital-acquired condition data with data from other systems.

All Reviewed Entities Protect Patient Privacy Through Policies, Practices, and Legal
Provisions
Each entity that we reviewed has patient privacy protections. These protections vary
across entities and include policies regarding what patient identifiers are collected,
practices regarding disclosing patient identifiers, and legal protections that apply to
patient identifiers.

State Systems Either Do Not Collect or Disclose Patient Identifiers and Most Prohibit the
Compelled Release of Patient Identifiers. Five State systems that we reviewed do not
collect any patient identifiers, such as the patient’s name or address. Because these State
systems do not collect patient identifiers, they cannot disclose such information. See
Appendix C for the types of patient identifiers that each of the 17 selected State systems
collect.


OEI-06-09-00360        Adverse Events in Hospitals: Public Disclosure of Information About Events
Page 11 – Carolyn M. Clancy, M.D., and Charlene Frizzera



Our review found no instances in which the remaining 12 State systems disclosed patient
identifiers publicly. Rather, most publications referred to patients in ways that would
prevent identification of individuals. For example, one approach to protecting patient
privacy involved developing profiles of typical patients who experience a type of event,
such as female, Caucasian, 60–64 years of age, and admitted to the hospital an average of
13 days prior to the event. However, we noticed that some publications contained a level
of detail that could be used to identify the patient. The possibility of compromised
patient privacy could be heightened under certain circumstances, such as when an
adverse event involves a patient who lives in a smaller community and when media
reports about an event contain additional information that can be matched to disclosed
information about the event.

Beyond disclosure of patient information in publications intended for learning, State
systems may be asked to disclose patient identifiers under four circumstances: public
records requests, civil judicial proceedings, criminal judicial proceedings, and
administrative proceedings. State laws vary regarding prohibitions against State systems
being compelled to release patient identifiers in these instances. Eight of the seventeen
systems that we reviewed have State laws that expressly prohibit the compelled release of
patient identifiers under all four circumstances. State laws for another eight systems
prohibit compelled release under at least one, but not all, of the circumstances. Table 2
lists the four circumstances and whether State laws prohibit systems from being
compelled to release patient identifiers under each circumstance. Appendix D expands
Table 2 by providing citations to relevant State laws and regulations.

For three systems, we found it difficult to ascertain whether State laws prohibited the
system from being legally compelled to release patient identifiers under one or more of
these circumstances. For example, one State law specifies that adverse event information
“shall be confidential, except for official purposes,” but does not define official purposes.
These ambiguous laws could require further administrative or judicial interpretation
regarding protection of patient privacy.




OEI-06-09-00360         Adverse Events in Hospitals: Public Disclosure of Information About Events
Page 12 – Carolyn M. Clancy, M.D., and Charlene Frizzera


     Table 2: Legal Prohibitions Against Compelled Release of Patient
     Identifiers by Selected State Adverse Event Reporting Systems
                                                              Public                              Criminal
                                                             Records       Civil Judicial         Judicial    Administrative
     System                                                  Request        Proceeding         Proceeding       Proceeding
     Colorado                                              Prohibited         Prohibited        Prohibited        Prohibited
     Florida                                               Prohibited         Prohibited     Not prohibited       Prohibited
     Maine*                                                Prohibited         Prohibited        Prohibited        Prohibited
     Maryland                                              Prohibited         Prohibited     Not prohibited   Not prohibited
                            #
     Massachusetts, BRM                                    Prohibited         Prohibited        Prohibited        Prohibited
                           #
     Massachusetts, DPH                                    Prohibited     Not prohibited     Not prohibited   Not prohibited
     Minnesota*                                            Prohibited     Not prohibited     Not prohibited   Not prohibited
     Nevada                                                Prohibited         Prohibited        Prohibited        Prohibited
     New Jersey                                            Prohibited         Prohibited        Prohibited        Prohibited
     New York                                              Prohibited           Unclear            Unclear          Unclear
     Oregon*                                               Prohibited         Prohibited     Not prohibited       Prohibited
     Pennsylvania*                                         Prohibited         Prohibited        Prohibited        Prohibited
     Rhode Island                                          Prohibited         Prohibited        Prohibited        Prohibited
     South Carolina*                                       Prohibited           Unclear            Unclear          Unclear
     South Dakota                                            Unclear            Unclear            Unclear          Unclear
     Utah                                                  Prohibited         Prohibited        Prohibited        Prohibited
     Vermont                                               Prohibited         Prohibited     Not prohibited       Prohibited

     *This State system does not collect patient identifiers.
     # BRM abbreviates the Board of Registration in Medicine and DPH abbreviates the Department of Public Health.

     Source: OIG review of 17 selected State adverse event reporting systems, 2009.


Patient Identifiers Collected by PSOs Will Be Removed Before Submission to the NPSD,
and Patient Privacy Is Protected Under the Patient Safety Act. The initial common
formats for PSO data include patient identifiers, such as patient name, date of birth, and
medical record number. To ensure that no patient identifiers are disclosed to the public,
an AHRQ contractor will remove patient identifiers before submission to the NPSD. 20
The contractor is also tasked with developing a protocol for suppressing descriptive
information that could compromise patient identity. For example, if only one hospital
performed liver transplants in a State, an adverse event report involving a liver transplant
in the State would require suppressing either the State name or the procedure name to
protect patient privacy.

To encourage hospitals to report information about adverse events, Federal privilege and
confidentiality protections apply to adverse event information collected by PSOs. 21
Privilege protections outlined in the Patient Safety Act limit or forbid the use of PSO data
in criminal, civil, administrative, or other proceedings. Additionally, confidentiality

20   Congress mandated that the NPSD use nonidentifiable information. 42 U.S.C. § 299b-23.
21   42 U.S.C. § 299b-22.



OEI-06-09-00360                    Adverse Events in Hospitals: Public Disclosure of Information About Events
Page 13 – Carolyn M. Clancy, M.D., and Charlene Frizzera


protections prohibit PSOs from disclosing any identifiable information about a provider
or patient.

Patient Identifiers Collected by CMS Are Released Only Through Data Use Agreements
Based on Federal Laws That Protect Patient Privacy. Medicare claims contain
information about Medicare beneficiaries including names, Medicare numbers, addresses,
dates of birth, gender, and race; and details about their hospital stays, such as provider
names, billing numbers, diagnosis codes, and charges for services. 22 Although CMS has
not disclosed information to the public about hospital-acquired conditions identified
through Medicare claims data, it does allow access to claims data in two forms: full
Medicare claims data and limited datasets. Full Medicare claims data include beneficiary
and provider identifiers, whereas limited datasets exclude or aggregate all identifiers of
patients and providers. For example, instead of the beneficiary’s date of birth, limited
datasets contain an age range, such as “[age] 65 through 69.” 23

To access either full or limited datasets, users must demonstrate a need for the data, state
the intended use of the research, and sign a data use agreement that includes specific
provisions regarding the protection of patient privacy. 24 Pursuant to the Privacy Act of
1974, CMS will only release claims data to a user who “agrees to implement appropriate
management, operational and technical safeguards sufficient to protect the
confidentiality, integrity and availability of the information and information systems and
to prevent unauthorized access.” 25 Additionally, CMS’s Privacy Board must review and
approve each request for access to full datasets with identifiers and any publications
resulting from use of identifiable data. 26




22 CMS, Medicare Claims Processing Manual ch. 25. Available online at
http://www.cms.hhs.gov/manuals/downloads/clm104c25.pdf. Accessed on October 22, 2009.
23 CMS, LDS Inpatient SNF Claim Record Data Dictionary, 2009. Available online at

http://www.cms.hhs.gov/LimitedDataSets/Downloads/SAFldsINPMar2009.pdf. Accessed on October 22, 2009.
24 CMS has two distinct data use agreements. Form CMS-R-0235 is used when the recipient is receiving data containing individual

identifiers. Form CMS-R-0235L is used when the recipient is receiving limited data sets. Available online at
http://www.cms.hhs.gov/PrivProtectedData/. Accessed on December 2, 2009.
25 71 Fed. Reg. 67137, 67142 (Nov. 20, 2006).
26 The CMS Privacy Board safeguards personally identifiable information, assures that there is minimal privacy risk to an individual

when information is released to a researcher, and ensures compliance with the Privacy Act of 1974 and the HIPAA Privacy Rule.
Available online at http://www.cms.hhs.gov/SystemLifecycleFramework/downloads/privacypolicy.pdf. Accessed on
November 25, 2009.



OEI-06-09-00360                   Adverse Events in Hospitals: Public Disclosure of Information About Events
Page 14 – Carolyn M. Clancy, M.D., and Charlene Frizzera


CONCLUSION

This memorandum report contains no recommendations and is being issued directly in
final form. We did not make recommendations for two reasons. First, we concluded that
it is not appropriate to make a broad recommendation for a public disclosure process.
Entities collect adverse event data for different purposes, such as for generating
information for patient safety improvements, conducting oversight of hospitals, or
processing payments for healthcare services. Given these differences, we believe that it
is less useful to propose a standard process for public disclosure than it is to describe the
current and planned practices of the entities that we reviewed. Second, all these entities
have patient privacy protections. Therefore we did not indentify particular privacy
concerns that warrant recommendations.

The disclosure practices of the seven State systems with more extensive disclosure can
serve as models for other entities. These systems disclose analysis of the causes of
events, evidence-based guidance for reducing occurrences, and information about
demonstrated improvements by hospitals. This type of information, if disseminated by
other State systems and entities that receive adverse event information, could help to
improve patient safety.

PSOs are expected to provide AHRQ with national data about adverse events and
contributing factors. Once common formats are fully implemented, AHRQ will be
positioned to publicly disclose more extensive information about the causes of events,
prevention strategies, and the effectiveness of those strategies. It is encouraging that
some PSOs are currently receiving adverse event information from hospitals and are
preparing to submit data to the NPSD. However, successful implementation will require
AHRQ to address the barriers that staff from one PSO described, including that some
hospitals question the cost and benefit of PSO participation.

Using only Medicare claims data, CMS is limited in what it can disclose about hospital-
acquired conditions, because claims data do not contain information about causes.
However, CMS’s plan to supplement claims data with other data sources appears to have
the potential to generate new and useful information about hospital-acquired conditions,
their causes, and prevention.

If you have comments or questions about this memorandum report, please provide them
within 60 days. Please refer to report number OEI-06-09-00360 in all correspondence.




OEI-06-09-00360         Adverse Events in Hospitals: Public Disclosure of Information About Events
Page 15 – Carolyn M. Clancy, M.D., and Charlene Frizzera


APPENDIX A: TAX RELIEF AND HEALTH CARE ACT OF 2006
P.L.No. 109-432
DIVISION B – MEDICARE AND OTHER HEALTH PROVISIONS
TITLE II—MEDICARE BENEFICIARY PROTECTIONS
SEC 203 OIG STUDY OF NEVER EVENTS

(a) Study.—
(1) In general.—The Inspector General in the Department of Health and Human Services
shall conduct a study on—
(A) incidences of never events for Medicare beneficiaries, including types of such events
and payments by any party for such events;
(B) the extent to which the Medicare program paid, denied payment, or recouped payment
for services furnished in connection with such events and the extent to which beneficiaries
paid for such services; and
(C) the administrative processes of the Centers for Medicare & Medicaid Services to detect
such events and to deny or recoup payments for services furnished in connection with such
an event.
(2) Conduct of study.—In conducting the study under paragraph (1), the Inspector
General—
(A) shall audit a representative sample of claims and medical records of Medicare
beneficiaries to identify never events and any payment (or recouping of payment) for
services furnished in connection with such events;
(B) may request access to such claims and records from any Medicare contractor; and
(C) shall not release individually identifiable information or facility-specific information.
(b) Report.—Not later than 2 years after the date of the enactment of this Act, the Inspector
General shall submit a report to Congress on the study conducted under this section. Such
report shall include recommendations for such legislation and administrative action, such as
a noncoverage policy or denial of payments, as the Inspector General determines
appropriate, including—
(1) recommendations on processes to identify never events and to deny or recoup payments
for services furnished in connection with such events; and
(2) a recommendation on a potential process (or processes) for public disclosure of never
events which—
(A) will ensure protection of patient privacy; and
(B) will permit the use of the disclosed information for a root cause analysis to inform the
public and the medical community about safety issues involved.




OEI-06-09-00360         Adverse Events in Hospitals: Public Disclosure of Information About Events
Page 16 – Carolyn M. Clancy, M.D., and Charlene Frizzera


APPENDIX A (continued)
(c) Funding.— Out of any funds in the Treasury not otherwise appropriated, there are
appropriated to the Inspector General of the Department of Health and Human Services
$3,000,000 to carry out this section, to be available until January 1, 2010.
(d) Never Events Defined.—For purposes of this section, the term “never event” means an
event that is listed and endorsed as a serious reportable event by the National Quality
Forum as of November 16, 2006.




OEI-06-09-00360       Adverse Events in Hospitals: Public Disclosure of Information About Events
Page 17 – Carolyn M. Clancy, M.D., and Charlene Frizzera


APPENDIX B: MEDICARE LIST OF HOSPITAL-ACQUIRED CONDITIONS
The Centers for Medicare & Medicaid Services (CMS) list of hospital-acquired conditions
is divided into 10 categories. Effective October 1, 2008, CMS no longer pays a higher
reimbursement for hospitalizations complicated by these categories of conditions if they
were not present on admission.

                  Hospital-Acquired Condition
                  1. Foreign object retained after surgery
                  2. Air embolism
                  3. Blood incompatibility
                  4. Pressure ulcers (stages III and IV)
                  5. Falls
                  A.    Fracture
                  B. Dislocation
                  C. Intracranial injury
                  D. Crushing injury
                  E.    Burn
                  F.    Electric shock
                  6. Manifestations of poor glycemic control
                  A.    Hypoglycemic coma
                  B. Diabetic ketoacidosis
                  C. Nonkeototic hyperosmolar coma
                  D. Secondary diabetes with ketoacidosis
                  E.    Secondary diabetes with hyperosmolarity
                  7. Catheter-associated urinary tract infection
                  8. Vascular catheter-associated infection
                  9. Deep vein thrombosis/pulmonary embolism associated with
                  A.    Total knee replacement
                  B. Hip replacement
                  10. Surgical site infection
                  A.    Mediastinitis after coronary artery bypass graft
                  B. Associated with certain orthopedic procedures involving the
                        a. Spine
                        b. Neck
                        c. Shoulder
                        d. Elbow
                  C. Associated with certain bariatric surgical procedures for obesity
                        a. Laprascopic gastric bypass
                        b. Gastroenterostomy
                        c. Laparoscopic gastric restrictive surgery
                  Source: Fiscal Year 2009 Final Inpatient Prospective Payment System Rule,
                  73 Fed. Reg. 48434, 48471 (August 19, 2008).




OEI-06-09-00360         Adverse Events in Hospitals: Public Disclosure of Information About Events
Page 18 – Carolyn M. Clancy, M.D., and Charlene Frizzera


APPENDIX C: PATIENT IDENTIFIERS COLLECTED BY SELECTED STATE
ADVERSE EVENT REPORTING SYSTEMS

                                                                                                Date of     Identifiable
         System                                                 Name         Address                                    *
                                                                                                  Birth        Number

         Colorado                                                                                                 ●

         Florida                                               ●                ●                                 ●

         Maine

         Maryland                                              ●                                 ●
                                 #
         Massachusetts, BRM                                    ●                                 ●
                                #
         Massachusetts, DPH                                    ●                                 ●

         Minnesota

         Nevada                                                                                  ●

         New Jersey                                            ●                ●                ●                ●

         New York                                                                                ●                ●

         Oregon

         Pennsylvania

         Rhode Island                                                                                             ●

         South Carolina

         South Dakota                                          ●

         Utah                                                                                    ●

         Vermont                                                                ●

         * Includes medical record number, hospital billing number, unique identifier, or patient identification number.
         # BRM abbreviates the Board of Registration in Medicine and DPH abbreviates the Department of Public Health.

         Source: Office of Inspector General review of 17 selected State adverse event reporting systems, 2009.




OEI-06-09-00360                 Adverse Events in Hospitals: Public Disclosure of Information About Events
Page 19 – Carolyn M. Clancy, M.D., and Charlene Frizzera


APPENDIX D: LEGAL PROHIBITIONS AGAINST COMPELLED RELEASE OF
PATIENT IDENTIFIERS BY SELECTED STATE ADVERSE EVENT REPORTING
SYSTEMS
                                                   Public Record            Civil Judicial       Criminal Judicial            Administrative
 State
                                                         Request             Proceeding               Proceeding                Proceeding
                     1
 Colorado                                               Prohibited              Prohibited                Prohibited                Prohibited
             2
 Florida                                                Prohibited              Prohibited            Not prohibited                Prohibited
         3*
 Maine                                                  Prohibited              Prohibited                Prohibited                Prohibited
                     4
 Maryland                                               Prohibited              Prohibited            Not prohibited            Not prohibited
                                          5#
 Massachusetts, BRM                                     Prohibited              Prohibited                Prohibited                Prohibited
                                          6#
 Massachusetts, DPH                                     Prohibited          Not prohibited            Not prohibited            Not prohibited
                         7*
 Minnesota                                              Prohibited          Not prohibited            Not prohibited            Not prohibited
                 8
 Nevada                                                 Prohibited              Prohibited                Prohibited                Prohibited
                          9
 New Jersey                                             Prohibited              Prohibited                Prohibited                Prohibited
                     10
 New York                                               Prohibited                Unclear                   Unclear                   Unclear
             11 *
 Oregon                                                 Prohibited              Prohibited            Not prohibited                Prohibited
                              12 *
 Pennsylvania                                           Prohibited              Prohibited                Prohibited                Prohibited
                              13
 Rhode Island                                           Prohibited              Prohibited                Prohibited                Prohibited
                                   14 *
 South Carolina                                         Prohibited                Unclear                   Unclear                   Unclear
                              15
 South Dakota                                             Unclear                 Unclear                   Unclear                   Unclear
        16
 Utah                                                   Prohibited              Prohibited                Prohibited                Prohibited
                 17
 Vermont                                                Prohibited              Prohibited            Not prohibited                Prohibited

  1.  Colorado Revised Statutes (CRS) 25-1-124(4);                              10. (continued) While Section 2805-m does not
      CRS 24-72-204.                                                                 expressly state that it affords adverse event reports
  2. Florida Statutes § 395.0197(7).                                                 an evidentiary privilege, judicial decisions suggest
  3. 22 Maine Revised Statutes § 8754(3).                                            that it does. Moreover, although at least one
  4. Code of Maryland Regulations 10.07.06.09.                                       intermediate appellate court has held that this statute
  5. Massachusetts General Law (MGL) ch. 4, § 7;                                     applies to grand jury subpoenas, the State’s highest
      MGL. ch. 111, §§ 204 and 205; 243 Code of                                      court has not addressed this issue.
      Massachusetts Regulations 3.04.                                           11. Oregon Laws 2003, ch. 686, § 12.
  6. MGL ch. 4, § 7.                                                            12. 40 Pennsylvania Statutes (PS) § 1303.311(h);
  7. Minnesota Statutes § 144.7065, sub. 0.                                          40 PS §§ 1303.311(d).
  8. Nevada Revised Statutes Annotated (NRS) § 439.840                          13. Rhode Island General Laws §§ 23-17-40(g),
      (as amended by 2009 Nevada Statutes 153 § 8);                                  23-17-15, and 23-17-25(a).
      NRS § 439.860.                                                            14. South Carolina Code Annotated §§ 44-7-315(A) and
  9. New Jersey Statutes § 26:2H-12.25(f).                                           § 44-7-315(B); S.C. Code Ann. § 44-7-310.
  10. New York Consolidated Law Service Public Health                           15. South Dakota Codified Laws § 34-12-17.
      § 2805- m. Note: Section 2805-m of the New York                           16. Utah Administrative Code (UAC) R380-200-6 and
      Public Health Law states that adverse events reports                           R380-210-5; Title 26, Chapter 3 of the Utah Code;
      submitted to the State shall be kept confidential and                          Utah Code Annotated (UCA) §§ 26-3-7 and 26-3-9;
      shall not be subject to discovery in civil actions.                            UCA § 63G-2-201.
                                                                                17. 18 Vermont Statutes Annotated § 1917.

 *This State system does not collect patient identifiers.
 # BRM abbreviates the Board of Registration in Medicine and DPH abbreviates the Department of Public Health.

 Source: Office of Inspector General review of 17 selected State adverse event reporting systems, 2009.




OEI-06-09-00360                                Adverse Events in Hospitals: Public Disclosure of Information About Events
